                                                 NATIONAL SCIENCE FOUNDATION 

                                                  OFFICE OF INSPECTOR GENERAL 

                                                    OFFICE OF INVESTIGATIONS 


                                           CLOSEOUT MEMORANDUM

Case Number: 110090047                                                                      Page 1 of 1



         OIG opened this investigation based upon allegations that a University 1 had falsified that its
         courses/curriculum for a certain graduate program2 were approved by appropriate authorities 3 and
         that grant funds on an NSF award4 had been misused because the University does not have an MS or
         PhD program for the particular graduate field of study.

         Our investigation found no evidence to support the allegations. Thus no further investigative
         activity is w a r r a n t e d . '

         This investigation is closed.




NSF OIG Form 2 (11102)
